No. _________
In The

Supreme Court of the United States

OLGA PAULE PERRIER-BILBO;

Petitioner,

v.

UNITED STATES, L. FRANCIS CISSNA, DIRECTOR, U.S. CITIZENSHIP AND
IMMIGRATION SERVICES;
Respondents.
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
PETITION FOR WRIT OF CERTIORARI
CERTIFICATE OF COMPLIANCE WITH WORD LIMITATION
As required by Supreme Court Rule 33.1(h), I certify that Olga Perrier-Bilbo’s
PETITION FOR WRIT OF CERTIORARI contains 4,313 words, excluding the
parts of the petition that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
/s/ - Michael Newdow

August 31, 2020

MICHAEL NEWDOW
Post Office Box 248
Nice, CA 95464
(626) 532-7694
NewdowLaw@gmail.com
Counsel of Record for Petitioner
Olga Paul Perrier-Bilbo

